Tmo
I

C@OCKLE

E-Mail Address:
L ega | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1678

DANIEL Z. CROWE; LAWRENCE K. PETERSON;
and OREGON CIVIL LIBERTIES ATTORNEYS,
an Oregon nonprofit corporation,
Petitioners,

v.

OREGON STATE BAR, a Public Corporation, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE MACKINAC CENTER FOR PUBLIC POLICY IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3042 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this Ist day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL fe watmeniens. | State of Nebraska Zz. Chk
fe watmeniens. | J. GOSS { Denke tate .

My Comm. Exp. September 5, 2023
Notary Public Affiant

 

41092
